                                                                   Issue Date
                                                                            March 12, 2007
                                                                   Audit Report Number
                                                                                2007-NY-1003




TO:         Rosalinda Lamberty, Director, Multifamily Housing, 2CHM


FROM:      Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Peregrine Health Management Company Used Project Funds for Ineligible,
         Unsupported, and/or Unnecessary Costs


                                    HIGHLIGHTS

 What We Audited and Why

             We audited Peregrine Health Management Company (agent) pertaining to its
             management of the financial operations of Peregrine’s Landing Senior
             Community (project). The audit was initiated based on a complaint, which
             alleged that the agent used project funds for nonproject costs, including tuition for
             the child of an employee of the agent, legal fees for non-project-related lawsuits,
             and salary to a former employee of the agent.

             Our objectives were to determine whether the complaint allegations were valid
             and whether the agent was using project funds in accordance with its regulatory
             agreement and U.S. Department of Housing and Urban Development (HUD)
             requirements.

 What We Found
             We found merit to one of the complaint allegations (see appendix B), and the
             agent did not use project funds in accordance with its regulatory agreement and
             HUD requirements. It used $116,798 in project funds for items that were
             ineligible, unsupported, and/or not necessary or reasonable for project operations.
             The questioned expenditures were associated with (a) non-project-related legal
           fees, (b) project employee incentives, (c) consulting fees, (d) travel expenses, (e)
           cellular telephone fees, and (f) accounting fees. Further, project funds are being
           encumbered, as $50,000 in funds and $35,062 in a bond and associated interest
           are being held in addition to a $5,475 account payable to cover non-project-
           related legal fees. In addition, the agent collected $72,740 in excessive
           management fees that could have been avoided, and used project funds to pay the
           salary and benefits of one of its employees, resulting in ineligible costs of
           $39,711.

What We Recommend
           We recommend that the director of the Buffalo Office of Multifamily Housing
           instruct the owner and agent to develop procedures to ensure compliance with its
           regulatory agreement and HUD rules and regulations to ensure that project funds
           are expended only for reasonable and necessary expenses. We recommend that
           HUD require the owner and agent to reimburse the project for the ineligible
           and/or unnecessary costs associated with legal fees, employee incentives,
           consulting fees, travel, cellular telephone expenses, and accounting services. We
           also recommend that HUD require the owner and agent to submit supporting
           documentation to justify the unsupported employee travel costs to enable HUD to
           make an eligibility determination. All amounts determined to be ineligible should
           be reimbursed to the project from nonproject funds. We recommend that the
           owner and agent be required to unencumber the project by removing $5,475 in
           accounts payable from the project’s books and records and take appropriate action
           to prevent future payments of non-project-related legal expenses. Further, we
           recommend that HUD determine the disposition of $85,062 in escrowed funds set
           aside for the developer-related lawsuit. HUD should consider removing the funds
           from the project’s books and records so that the encumbered funds will be
           available for paying operating expenses. In addition, the owner and agent should
           be required to negotiate a management fee that is reasonable and commensurate
           with the services provided, and reimburse the project from nonproject funds for
           the excessive supervisory salary paid.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We discussed the results of our review during the audit and at an exit conference
           held on February 6, 2007. Agent officials did not agree with the findings and
           provided their written comments during the exit conference. The complete text of
           the auditee’s response, along with our evaluation of that response, can be found in
           appendix C of this report.



                                             2
                              TABLE OF CONTENTS

Background and Objectives                                                         4

Results of Audit
        Finding 1:   The Agent Used Project Funds to Pay Questionable             5
                     Expenses That Were Not Necessary or Reasonable for Project
                     Operations

        Finding 2:   Excessive Management Fees Were Collected from the Project    10
        Finding 3:   The Agent Charged One Employee’s Salary and Benefits to      13
                     the Project

Scope and Methodology                                                             15

Internal Controls                                                                 16

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use            18
   B.   Summary Evaluation of Complaint Allegations                               19
   C.   Auditee Comments and OIG’s Evaluation                                     20
   D.   Summary of Ineligible, Unsupported, and Unnecessary Expenditures          32
   E.   Project Owner and Agent Relationship                                      35
   F.   Criteria                                                                  37




                                              3
                     BACKGROUND AND OBJECTIVES

Peregrine’s Landing, a New York State limited liability company (LLC), was organized on
September 28, 2001, for the purpose of establishing, maintaining, and operating a 100-unit
enriched housing facility located in Cheektowaga, New York, known as Peregrine’s Landing
Senior Community (project). Peregrine’s Landing, LLC, operates under the provisions of
Section 232 of the National Housing Act with mortgage insurance provided by the U.S.
Department of Housing and Urban Development (HUD). The project (Project No. 014-43146)
began its operations on January 16, 2004, when the owners received partial permission to
occupy; however, construction was not completed until February 11, 2004.

Peregrine’s Landing, LLC, entered into a management agreement with Peregrine Health
Management Company (agent) to administer, manage, and supervise the project’s residents for a
15-year period commencing with the month of occupancy. The management fee for these
services was $95,833 in 2004, $225,000 in 2005, and is to increase by 3 percent each year
thereafter, payable in equal monthly installments.

A lawsuit involving the owner and agent and an on-going lawsuit involving the developer could
affect the success of the project (see appendix E).

The objectives of our audit were to determine whether the complaint allegations were valid and
whether the agent used project funds in accordance with its regulatory agreement and HUD
requirements.




                                               4
                                RESULTS OF AUDIT

Finding 1: The Agent Used Project Funds to Pay Questionable Expenses
           That Were Not Necessary or Reasonable for Project
           Operations
The agent used $116,798 in project funds to pay expenses that were ineligible, unsupported,
and/or unnecessary/unreasonable. These expenses were paid during the period between
December 23, 2003, and May 31, 2006, and were associated with (a) non-project-related legal
fees, (b) project employee incentives, (c) consulting fees, (d) travel expenses, (e) cellular
telephone fees, and (f) accounting fees. Further, project funds are being encumbered, as $50,000
in funds held in escrow, a $35,062 bond and interest payable, and a $5,475 account payable are
slated to be used to pay legal fees in non-project-related lawsuits. These problems occurred
because the agent believed the charges were project related and not the responsibility of the
agent. Consequently, the project may have been deprived of $207,335 in funds that could have
been used for reasonable and necessary operating expenses.


 Non-Project-Related Legal Fees
 Were Charged to the Project

              Legal fees of $53,908 were paid by the agent from project funds for non-project-
              related lawsuits. Based on a May 12, 2003 file date, legal action was taken by the
              original lender against the developer of the project related to the financing of the
              project during development. The developer has an identity-of-interest
              relationship with the agent. As a result, the agent used project funds to pay
              litigation fees incurred totaling $11,563. Since this lawsuit did not relate to
              project operations, the fees paid should be repaid to the project. In January 2005,
              the owner attempted to replace the agent with a new management entity (see
              appendix E). Consequently, the agent took legal action against the owner. The
              agent used $42,345 in project funds to pay its portion of the expenses incurred as
              a result of the litigation. This represents an ineligible expense, and the $42,345
              should be reimbursed to the project from nonproject funds. In addition, the agent
              recorded an account payable of $5,475 for the owner’s portion of the fees that
              were incurred as a result of the litigation. Paragraph 9(c) of the agent’s regulatory
              agreement with HUD provides that costs should be reasonable and necessary.
              Further, paragraph 4 provides that the agent should not encumber the project
              without HUD’s approval (see appendix F). Since this payable is not related to the
              project, it is an ineligible project expense that should be removed from the
              project’s books. If any of these legal fees have been paid since the date of our
              field work, HUD should pursue recovery of this amount.

              Further, $50,000 in project cash is being held in an escrow account, and $25,000
              in bonds payable was set aside for potential settlement of the lawsuit against the


                                                5
           developer. As of November 30, 2006, accrued interest payable on the bonds
           totaled $10,062. HUD needs to make a determination as to whether the $50,000
           in escrow is project funds and therefore should be obtained from the title agent
           and returned to the project’s operating account. In addition, HUD should
           determine whether the $25,000 bond and $10,062 bond interest payable should be
           removed from the project’s books and records, as these amounts are encumbering
           the project and appear to be the responsibility of the owner. This would allow
           $85,062 in encumbered ineligible funds to be available for paying operating
           expenses.

Expenditures for Project
Employee Incentives Were
Charged to the Project

           Project employees received incentives totaling $17,820 from the project’s
           operating account. These special incentives included grocery store gift
           certificates, Christmas bonus checks, Christmas events, pizza and happy hour
           parties, and other incentives for the employees of the project. These incentives
           represent expenses unnecessary for project operations. The $17,820 is ineligible
           and unreasonable; therefore, the agent should reimburse this amount to the project
           from nonproject funds.

Unnecessary Consulting Fees
Were Charged to the Project
           On November 28, 2005, the agent contracted the services of a consultant to
           function as an assistant on-site coordinator to provide additional supervisory
           services for the project, such as administration and management of project
           employees. The consultant performed services at the project for approximately
           three months from December 2005 through February 2006 and was paid from
           project funds. Through interviews with the agent and its employees, we
           determined that the consultant was actually contracted for the purpose of gaining
           experience for future employment at another project managed by the agent. The
           services provided by the consultant were a duplication of the services provided by
           the on-site coordinator employed full time by the project. As a result, $9,754 in
           consulting service costs represents an unreasonable charge to the project and
           should be reimbursed from nonproject funds.

Travel Expenses Were Charged
to the Project

           During the period between January 22, 2004, and November 22, 2005, project
           funds were used to pay travel expenses for an employee of the agent. Examples
           of the travel expenses include overnight stays at hotels, mileage, tolls, and other
           travel-related expenses. Since these travel expenses were incurred by an
           employee of the agent, they should not have been paid from project funds. A total



                                            6
           of $484 in ineligible costs was charged to the project and should be reimbursed
           from nonproject funds. Questionable travel expenses were also incurred by
           employees of the project. These expenses were for project employees to travel for
           meetings at the agent’s office and to other projects managed by the agent.
           Contrary to HUD regulations, the agent could not provide adequate supporting
           documentation to demonstrate how these travel disbursements benefited the
           project or whether they were for necessary and reasonable operating expenses.
           Therefore, the expenses totaling $2,109 are considered unsupported costs. We are
           requesting that the agent provide support for these expenses so that HUD can
           make an eligibility determination. The agent should be instructed to reimburse
           the operating account from nonproject funds for all expenses determined to be
           ineligible.

Cellular Telephone Fees Were
Charged to the Project

           Project funds were used to pay for cellular telephone service for an employee of the
           agent. The monthly fees totaled $1,104. The fees incurred associated with this
           employee’s cellular telephone use are the responsibility of the agent. Consequently,
           the $1,104 represents an ineligible project expense and should be reimbursed from
           nonproject funds. Also, $1,295 in project funds was used to pay for additional use
           and overage charges for project employees’ cellular telephones. These funds
           represent unnecessary charges to the project that the agent should reimburse from
           nonproject funds.

Unnecessary and Unreasonable
Accounting Fees Were Charged
to the Project

           Unnecessary and unreasonable accounting and auditing fees in the amount of
           $30,324 were paid with project funds during the period between January 24,
           2005, and May 31, 2006. Fees in the amount of $23,655 were paid to the
           independent public accountant contracted by the agent to perform corrections and
           revisions to the project’s internal financial statements. The corrections and
           revisions to the statements and cost certification schedules were done in
           preparation for audits. The amount of $23,655 is considered excessive compared
           to having the adjustments performed by employees of the project. The fees also
           include $6,669 in salary for an accountant whose services were contracted by the
           agent on March 15, 2006, to prepare the books and records for the 2005 financial
           audit. The $30,324 is an unnecessary and unreasonable project cost because the
           adjustments to the general ledger were not recorded in a timely manner. These
           costs were for additional services that should not have been necessary.




                                             7
Conclusion
             The agent did not expend project funds in an efficient and effective manner.
             Consequently, the project was deprived of $116,798 due to questionable
             expenditures (see appendix D). Further, $5,475 in accounts payable should be
             removed from the projects books and HUD needs to make a determination
             whether $85,062 in encumbered funds (consisting of $50,000 held in escrow, a
             $25,000 bond, and $10,062 in accrued bond interest) should be returned to the
             project and/or removed from the project’s books and records. This would allow
             the encumbered funds to be available to pay for operating expenses.


Recommendations

             We recommend that the director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             1A.    Develop procedures to ensure compliance with all terms and conditions of
                    its regulatory agreement and HUD rules and regulations that require
                    project funds to be expended only for reasonable and necessary expenses.
                    The procedures should also ensure that adequate supporting
                    documentation for expenses is obtained and maintained.

             1B.    Reimburse the project’s operating account from nonproject funds $83,070
                    for ineligible costs ($53,908 for legal fees, $17,820 for employee
                    incentives, $9,754 for consulting fees, $484 for travel expenses, and
                    $1,104 for cellular telephone expenses (see appendix D)).

             1C.    Provide supporting documentation for the $2,109 in unsupported
                    employee travel expenses that was charged to the project so that HUD can
                    make an eligibility determination. If any of the amounts are deemed
                    ineligible, the agent should be instructed to reimburse the operating
                    account from nonproject funds.

             1D.    Take appropriate action to prevent payment of non-project-related legal
                    expenses after our audit period, including the payment of the questionable
                    accrued payable of $5,475. This payable should be removed from the
                    projects books and if any non-project-related legal expenses have been
                    paid, the agent should be instructed to reimburse the operating account
                    from nonproject funds.

             1E.    Reimburse the project’s operating account from nonproject funds $31,619
                    for unnecessary costs ($1,295 in unnecessary cellular telephone expenses
                    and $30,324 in unnecessary accounting services costs (see appendix D)).




                                             8
We also recommend that the director, Buffalo Office of Multifamily Housing,

1F.    Determine the disposition of the escrowed funds and bonds (consisting of
       $50,000 in cash, a $25,000 bond and $10,062 in accrued bond interest) set
       aside for the developer-related lawsuit. After determining the proper
       disposition of these funds HUD should determine whether to remove the
       funds from the project’s books and records. This would allow $85,062 in
       encumbered funds to be available for paying operating expenses.




                                9
Finding 2: Excessive Management Fees Were Collected from the
           Project
During the period between January 1, 2004, and April 30, 2006, the agent collected excessive
management fees from the project. We attribute this deficiency to a negotiated management fee
that exceeded the amount ordinarily paid for such services. In addition, the management contract
did not provide for a fee that was consistent with the scope of services that were to be provided.
As a result, the project was deprived of $72,740, which could have been used for necessary and
reasonable operating expenses.


 The Owner and Agent Entered
 into a Fixed Fee Contract

               Initial drafts of the proposed management agreement presented to HUD and the
               Internal Revenue Service provided for a proposed management fee equal to 6
               percent of gross revenue annually, payable in 12 monthly installments. However,
               the Internal Revenue Service issued Revenue Procedure 97-13 regarding federal
               tax limitations that apply to management contracts between for-profit managers
               and not-for-profit owners. These regulations provided that the longest allowable
               term of a contract, including all renewal options, is 15 years. In addition, at least
               95 percent of the compensation must be based on a fixed fee. The management
               agreement was revised, and on November 20, 2002, the agent and owner entered
               into a 15-year fixed fee management contract. The contract provided that the
               agent would be paid a management fee each month commencing the month the
               certificate of occupancy for the project was received. The fee would be prorated
               monthly on the following yearly pay schedule: $100,000 in year one, $225,000 in
               year two, and a 3 percent increase in the management fee annually from year
               three through the term of the contract.

 Comparable Management Fees
 Did Not Exceed 6 Percent

               The management fees collected by management companies of assisted living
               facilities of comparable size did not exceed 6 percent of gross revenue. We
               examined the contracts of four different management companies at three projects
               located in the area and found that these management fees were equivalent to
               between 4 and 6 percent of gross annual revenue. One management company’s
               fee was 4 percent of gross revenue because it did not provide human resources as
               part of its scope of services. Our interview with an official of the management
               company indicated that its fee would have been closer to 6 percent if it provided
               such services.

               The agent collected management fees in excess of 6 percent of gross annual
               revenue in years 2004 and 2005, which does not appear to be reasonable. The
               agent collected management fees equivalent to 6.8 percent of gross annual


                                                10
           revenue in 2004 and 7.8 percent in 2005. The management fee for 2006 is
           projected to be 6.8 percent of gross annual revenue. HUD officials concurred that
           the management fees collected by the agent should be renegotiated to reflect an
           amount comparable to the examples cited above.

The Management Fee Was Not
Consistent with the Scope of
Services Provided

           The agent provided fewer services than comparable management companies that
           were being paid less as a percentage of gross annual revenue. For example, other
           management companies provided bookkeeping services. The contract for one
           comparable management company, which received 4 percent of gross annual
           revenue in fees, included a provision pertaining to the maintenance of complete
           and accurate books, records, and accounts in a manner reasonably satisfactory to
           the owner and in accordance with generally accepted accounting principles. The
           contract for another comparable management company, with a management fee of
           5 percent of gross annual revenue, provided for an average of 45 hours per month
           of bookkeeping services.

           The agent’s contract did not require the agent to provide bookkeeping services as
           part of its fee. The contract only provided for the agent to establish accounting
           system procedures with respect to the project’s books, accounts payable and
           receivable, ledgers, and other primary accounting records of the project. Further,
           the agent would train and supervise personnel in keeping and verifying the
           accuracy of the operating records. Thus, contrary to paragraph 9(c) of the
           regulatory agreement, which provides that payments for services shall not exceed
           the amount ordinarily paid for such services in the area where the services are
           rendered, the management fee paid to the agent was not consistent with the scope
           of services provided.


Excessive Management Fees of
$72,740 Could Have Been
Avoided

           During the period between January 2004 and April 2006, the agent was paid
           $398,083 in management fees, which represents 7.3 percent of gross annual
           revenue. A management fee of 6 percent of gross annual revenue would have
           been more reasonable based on the initial management fee proposals and an
           analysis of comparable management companies. Management fees would have
           been $325,343 at 6 percent of gross revenue. Thus, $72,740 in management fees
           could have been avoided.




                                           11
                              Total gross        Management           6 percent        Excessive
                   Year          revenue             fee paid    management fee          amount
                   2004        $1,404,198            $95,833            $84,252          $11,581
                   2005        $2,877,651           $225,000           $172,659          $52,341
                   2006        $1,140,540            $77,250            $68,432           $8,818
                   Total                                                                 $72,740


Conclusion
             The fixed fee management contract did not provide for a management fee that
             was consistent with comparable management contracts. As a result, the project
             was deprived of $72,740 in project funds that could have been used for necessary
             and reasonable operating expenses. HUD agrees that the management fees are
             excessive and not consistent with other comparable projects; however, they
             believe that it is unrealistic to require repayment for the previously collected fees.
             HUD agrees that the management agreement should be renegotiated to reflect fees
             that are more comparable to the industry. As such, a reduction in the management
             fee would result in a cost savings of $25,974 annually. The amount represents
             one year of management fees based on the management agreement, less the
             management fee calculated at 6 percent of gross revenue. The gross revenue
             amounts were obtained from the agent.

Recommendations
             We recommend that the director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             2A.      Negotiate a management fee that is reasonable and commensurate with the
                      services that are provided. The management fee should not exceed an
                      amount ordinarily paid for such services, resulting in $25,974 in cost
                      savings.

             We also recommend that HUD

             2B.      Review and approve the negotiated management fee to ensure that it is
                      reasonable in relation to the services provided to the project.




                                               12
Finding 3: The Agent Charged One Employee’s Salary and Benefits to
           the Project
The agent used project funds to pay the salary and benefits of one of its employees. These
expenses totaled $39,711 and were incurred during the period from January 1, 2004, through
April 30, 2006. This occurred because the agent circumvented HUD regulations regarding
charging agent salaries to the project. Consequently, the project was deprived of $39,711 in
funds that could have been used for reasonable and necessary operating expenses.


 Salary and Benefits of an Agent
 Employee Were Charged to the
 Project

              The agent employed a project coordinator to perform supervisory services related
              to each of the agent’s projects, one of which was Peregrine’s Landing Senior
              Community. The supervisory services performed consisted of managerial-related
              duties, including overseeing financial transactions, approving purchases,
              performing quality assurance reviews, and overseeing personnel and the human
              resources function. However, the agent charged a portion of this employee’s
              salary to the project as if this person were an employee of the project. Since the
              employee’s duties as an employee of the project were not defined, we could not
              determine what services were provided for the $39,711 that was charged to the
              project during the period.

              HUD Handbook 4381.5, REV-2, provides that the management agent must absorb
              the costs of supervising and overseeing project operations from the management
              fee. Further, paragraph 9(c) of the regulatory agreement provides that the owner
              shall make no payment for services unless such services are actually rendered for
              the project and are reasonably necessary for its operation. Since the project
              coordinator is a member of the management agent’s supervisory staff, the
              management agent circumvented HUD regulations by making this supervisory
              staff member an employee of the project to charge a portion of the employee’s
              salary costs to the project.

              The agent believed that the employee’s responsibilities were specific to the
              project and that charging a portion of the employee’s salary and benefits to the
              project was justified. However, the agent could not define the employee’s job
              title or responsibilities as they related to the project. Consequently, the specific
              affiliation this employee had with project could not be determined.




                                                13
Conclusion
             The agent used project funds to pay a portion of the salary of one of its
             employees. Consequently, the project was deprived of $39,711 in funds that
             could have been used for reasonable and necessary operating expenses.
             Therefore, if the agent ceases to charge a portion of this employee’s salary to the
             project, a cost savings of $15,886 can be realized. This amount represents one
             year of this employees biweekly salary.

Recommendations

             We recommend that the director of the Buffalo Office of Multifamily Housing
             instruct the owner and agent to

             3A.    Reimburse the project’s operating account from nonproject funds $39,711
                    for ineligible costs related to the employee’s salary that was charged to the
                    project.

             3B.    Take appropriate action to ensure that the agent’s employee salaries are
                    not charged to the project in the future. By ceasing to charge this
                    employee’s salary to the project, a cost savings of $15,886 per year will be
                    realized.




                                              14
                        SCOPE AND METHODOLOGY

Our review focused on whether the agent used project funds in accordance with its regulatory
agreement and HUD requirements. To accomplish our objectives, we interviewed the
complainant and HUD officials. In addition, we reviewed the regulatory agreement, applicable
HUD regulations, the agent’s certification, and the certifications of comparable agents. We
reviewed the project’s financial records and the audited financial statements prepared by the
project’s independent public accountant. We also reviewed information obtained from HUD’s
Real Estate Management System and Financial Assessment Subsystem.

The review covered the period January 1, 2004, through April 30, 2006, and was extended as
necessary. We performed our audit work from May through October 2006 at the offices of the
agent located in Syracuse, New York, and the project located in Cheektowaga, New York.

The review was conducted in accordance with generally accepted government auditing
standards.




                                              15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit
              objectives:

              •   Validity and reliability of data – Policies and procedures that management has
                  implemented to reasonably ensure that valid and reliable data are obtained,
                  maintained, and fairly disclosed in reports.

              •   Compliance with laws and regulations – Policies and procedures that
                  management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

              •   Safeguarding resources – Policies and procedures that management has
                  implemented to reasonably ensure that resources are safeguarded against
                  waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               16
Significant Weaknesses
           Based on our review, we believe the following items are significant weaknesses:

           •      The agent did not have an adequate system to ensure compliance with laws
                  and regulations relating to the payment of non-project-related costs and the
                  collection of excessive management fees (see findings 1 and 2).

           •      The agent did not have an adequate system to ensure that resources were
                  properly safeguarded when it charged questionable expenditures and salary
                  costs to the project (see findings 1 and 3).




                                            17
                                       APPENDIXES

Appendix A
                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE

     Recommendation       Ineligible   Unsupported          Unreasonable or    Funds to be put to
         number                   1/            2/           unnecessary 3/         better use 4/
                  1B        $83,070
                  1C                         $2,109
                  1D         $5,475
                  1E                                                $31,619
                  1F                                                                     $85,062
                  2A                                                                     $25,974
                  3A       $39,711
                  3B                                                                     $15,886
                Total     $128,256           $2,109                 $31,619             $126,922


1/      Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
        that the auditor believes are not allowable by law; contract; or federal, state, or local
        polices or regulations.

2/      Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
        or activity when we cannot determine eligibility at the time of audit. Unsupported costs
        require a decision by HUD program officials. This decision, in addition to obtaining
        supporting documentation, might involve a legal interpretation or clarification of
        departmental policies and procedures.

3/      Unreasonable/unnecessary costs are those costs not generally recognized as ordinary,
        prudent, relevant, and/or necessary within established practices. Unreasonable costs
        exceed the costs that would be incurred by a prudent person in conducting a competitive
        business.

4/      Recommendations that funds be put to better use are estimates of amounts that could be
        used more efficiently if an Office of Inspector General (OIG) recommendation is
        implemented. This includes cost reductions in outlays, deobligation of funds, withdrawal
        of interest subsidy costs not incurred by implementing recommended improvements,
        avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
        which are specifically identified. In this instance, if the agent implements our
        recommendation by negotiating a management fee that is commensurate with the services
        provided and ceases to charge the salary of the agent employee to the project, it will
        ensure a cost savings.



                                               18
Appendix B

  SUMMARY EVALUATION OF COMPLAINT ALLEGATIONS


 Allegation 1

                The complainant alleged that the agent used project funds to pay the private
                school tuition for the child of an employee.

                Evaluation – This allegation is not valid. The agent did not pay the private
                school tuition costs of an employee’s child using project funds. The payment of
                the tuition was in the form of the employee’s compensation and not in addition to
                the employee’s salary. The employee elected to have a portion of the employee’s
                salary direct deposited to the school for the period September 2004 through April
                2005. We do not take exception to the agent’s direct depositing a portion of the
                employee’s salary to the school to cover tuition costs.

Allegation 2

                The complainant alleged that the agent used project funds for non-project-
                related lawsuits.

                Evaluation – This allegation is valid. The agent paid $11,563 in legal fees to
                defend a lawsuit between a former mortgagee and an entity unrelated to the
                project. In addition, the agent has restricted the use of $50,000 in project funds
                and is holding $35,062 in a bond and interest payable along with a $5,475 account
                payable to be used to settle this dispute. The agent also paid $42,345 in legal fees
                to defend itself in a lawsuit between the agent and the owner of Peregrine’s
                Landing, LLC. We take exception to the use of project funds for non-project-
                related lawsuits. The costs incurred for non-project-related lawsuits should not be
                borne by the project (see finding 1).

Allegation 3

                The complainant alleged that the agent used project funds to pay salary to a
                former employee.

                Evaluation – This allegation is not valid. Based on our review of the general
                ledger, payroll liabilities, and office salaries expense accounts, no material
                deficiencies were noted. The employee identified in the complaint was fired in
                2005, and did not receive any further compensation from the project.




                                                 19
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         20
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




Comment 3




                         21
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




                         22
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 6



Comment 7


Comment 8



Comment 9




Comment10




                         23
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 10




Comment 11




                         24
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 11




Comment 12




                         25
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 12




Comment 13




Comment 14


Comment 15




                         26
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 15

Comment 16




Comment 17




                         27
Appendix C

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                Auditee Comments




Comment 17




                        OIG Evaluation of Auditee Comments



                                       28
Comment 1   The May 12, 2003 date used in the report pertains to the date for which the legal
            matter was filed. Further, the actions of the development company caused the
            legal expenses to be incurred. As such, this legal matter is between Peregrine
            Development Company and AMI Capital and does not relate to project
            operations. This is further evidenced by the August 3, 2005 court document that
            stipulated the release of all parties named in the lawsuit except Peregrine
            Development Company.

Comment 2   As noted above, the lawsuit is against the developer. Further, we were not
            provided with evidence to support the claim that HUD validated the continued
            encumbrance of the project for purposes of reserving payment of financing fees to
            the lender. Placement fees of 1.5 percent of the loan amount were approved by
            HUD and paid to the lender, however the $50,000 in cash and $25,000 in D bonds
            and $10,062 in bond interest are additional encumbrances payable to the project’s
            original lender that HUD was not made aware, therefore HUD needs to determine
            the disposition of these encumbrances.

Comment 3   It is our contention that the lawsuit did not pertain to the operations of the project.
            HUD Handbook 4370.2 REV-1 provides that the legal expense account, records
            legal fees or services incurred on behalf of the project (as distinguished from the
            mortgagor entity). For example, agents charge legal fees for eviction procedures
            to this account. Further, the regulatory agreement states that income and other
            funds of the project shall be expended only for the purposes of the project and the
            mortgagor shall make no payment for services...unless such services are
            reasonably necessary for its operation. The lawsuit between the agent and project
            owner is of a personal nature, as supported by agent official’s description of the
            lawsuit in their response, whereas, officials for the agent refer to the legal matter
            as “contentious differences between owner and manager” (see page 27). Thus,
            the $42,345 in project funds used to pay the agent’s portion of legal fees should
            be reimbursed to the project, and the $5,475 recorded as a payable for the owner’s
            portion of the fees should not be paid and should be removed from the project’s
            books.

Comment 4   We do not discourage the agent from offering incentives to project employees,
            however, the incentives should not be paid from project funds. The employee
            incentives are unnecessary for project operations; thus, we consider the $17,820
            an ineligible expense.

Comment 5   Our review determined that the nature of the work performed by the consultant
            was management related. Through interviews with the individual and agent
            officials, it was determined that the individual acted as an assistant on-site
            coordinator providing additional supervisory services for the project. The services
            provided were redundant and unnecessary, as the project has a full time on-site
            coordinator. Thus, the $9,754 in consulting fees should be reimbursed to the
            project.

Comment 6   The use of $484 in project funds to reimburse employees of the agent for travel is
            an ineligible use of project funds, whereas the management agent should absorb


                                              29
               the costs incurred by its own employees. Further, costs incurred by employees of
               the project may be eligible project expenses; however, the nature of the $2,109 in
               travel expenses incurred by employees of the project for travel to agent offices or
               other projects managed by the agent could not be determined from review of
               supporting documentation provided to us. As such, this amount has been deemed
               unsupported; agent officials need to provide HUD adequate supporting
               documentation so that HUD can determine whether the expenses were necessary
               for project operations. All expenses determined to be ineligible should be
               reimbursed to the project’s operating account.

Comment 7       The $1,104 in fees incurred by an employee of the agent are the responsibility of
               the agent and should not be paid from project funds. Further, the use of $1,295 in
               project funds to pay additional use and overage charges in association with
               cellular service for employees of the project represents unnecessary expenses to
               the project since the charges represent fees over and above the monthly cellular
               service plan allowance.

Comment 8      The $23,655 in accounting fees incurred by an independent public accountant to
               perform corrections to the project’s financial statements and $6,669 in salary for
               an accountant to prepare for the 2005 financial audit are considered unnecessary
               and unreasonable charges. These services should not have been necessary, or in
               the very least, if necessary, performed by project employees without incurring
               additional expenses to the project.

Comment 9      We disagree as per our comments above.

Comment 10 The agent did not expend funds in an efficient and effective manner, thus
           $116,798 has been questioned. The agent did not adequately support the items in
           question and/or prove that HUD validated the continued encumbrance of the
           project via the bonds and interest. Lastly, in regards to the employee travel
           expenses, the supporting documentation provided with the auditee comments was
           the same documentation we reviewed while on-site, but which has been
           subsequently altered with handwritten annotations. As such, we conclude that no
           new documentation was provided to support whether the expenses were necessary
           and reasonable for project operations, thus the $2,109 in employee travel
           expenses remain unsupported.

Comment 11 Based on the comparative analysis work we performed, it is evident that excessive
           fees were collected from the project. Specifically, management fees collected at
           comparable projects were between 4 percent and 6 percent of gross revenue,
           whereas the agent collected fees of 6.8 percent of gross revenue in 2004, 7.8
           percent in 2005, and is projected to receive 6.8 percent in 2006. Further, the
           agent provided fewer services than the comparable management companies
           receiving less a percentage of gross revenue. This is clearly in violation of the
           regulatory agreement. The excessive $72,740 in management fees could have
           been avoided. However, we have determined in conversations with HUD
           officials that it is unrealistic to require repayment for the previously collected fees
           pertaining to this situation. Therefore, we have revised recommendation 2A of


                                                30
              our report to recommend that the owner and agent be instructed to renegotiate a
              management fee that is reasonable and commensurate with the services that are
              provided. As such, a reduction in the management fee would result in a cost
              savings of $25,974 annually to the project.

Comment 12 Our review determined that the responsibilities of this employee, performing in
           the capacity as the agent’s project coordinator, included supervisory services for
           the project such as overseeing financial transactions, performing quality assurance
           reviews, and overseeing personnel and the human resources function. However,
           the responsibilities as an employee of the project were not adequately defined
           and/or could not be determined. As such, the $39,711 in salary charged to the
           project is considered ineligible and should be reimbursed by the agent to the
           project’s operating account.

Comment 13 The results of our audit determined that project funds were used to pay
           questionable expenses that were not necessary or reasonable for project
           operations, excessive management fees were collected from the project, and the
           agent charged one employee’s salary and benefits to the project. Our findings are
           based upon our review of the regulatory agreement, applicable HUD
           requirements, the management agreement and certification, in addition to,
           documentation provided by the agent, including the project’s financial records
           and the audited financial statements. Thus, our findings are not based on
           unsubstantiated opinion.

Comment 14 As detailed in findings 1 through 3 the expenses noted are not eligible project
           expenses. Appendix A categorizes the questioned costs in conjunction with the
           report’s recommendations, and is a summary of the significance of these issues.

Comment 15 Our review determined that allegation 2 is valid, whereas the agent used project
           funds for non-project-related lawsuits. Accordingly, we concluded that costs
           incurred for non-project-related lawsuits should not be borne by the project (see
           finding 1).

Comment 16 We disagree as per our comments above.

Comment 17 We disagree as per our comments above.




                                              31
      Appendix D

                  SUMMARY OF INELIGIBLE, UNSUPPORTED, AND
                       UNNECESSARY EXPENDITURES
Check date         Check      Description                                  Ineligible    Unsupported   Unnecessary
                  number                                                       @              @             @
July 19, 2004    1379         Legal fees for developer lawsuit              $ 5,000.00
Jan. 12, 2005    1752         Legal fees for developer lawsuit                1,563.00
Aug. 15, 2005    2205         Legal fees for developer lawsuit                5,000.00
Jan. 04, 2006    2576         Agent’s legal fees for owner/agent dispute     13,000.00
Jan. 07, 2006    2524         Agent’s legal fees for owner/agent dispute     27,843.00
May 22, 2006     2939         Agent’s legal fees for owner/agent dispute      1,502.00
                                                Total legal expenses        $53,908.00
Dec. 23, 2003    1197         Lunch                                              60.00
Jan. 10, 2004    Petty cash   Party supplies                                     26.00
Jan. 10, 2004    Petty cash   Breakfast                                           8.00
Jan. 10, 2004    Petty cash   Liquor                                            149.00
Jan. 10, 2004    Petty cash   Lunch                                              21.00
Jan. 10, 2004    Petty cash   Lunch                                              12.00
Jan. 29, 2004    1009         Party supplies/food/liquor                        472.00
Feb. 25, 2004    Petty cash   Lottery tickets                                    20.00
Mar. 31, 2004    Petty cash   Party supplies                                      9.00
May 01, 2004     1023         Wedding gift                                      170.00
May 28, 2004     Petty cash   Bonus gift certificates                            60.00
May 28, 2004     Petty cash   Lunch                                              41.00
June 28, 2004    Petty cash   Bonus gift certificate                             20.00
June 28, 2004    Petty cash   Lunch                                              18.00
July 25, 2004    Petty cash   Bonus gift certificate                             40.00
July 25, 2004    Petty cash   Lunch                                              40.00
Sept. 17, 2004   1506         Lunch                                              49.00
Sept. 17, 2004   1507         Lunch                                              22.00
Sept. 30, 2004   1538         Lunch                                              33.00
Sept. 30, 2004   Petty cash   Bonus gift certificate                             20.00
Oct. 29, 2004    Petty cash   Bonus gift certificate                             20.00
Nov. 11, 2004    1602         Christmas party                                   200.00
Nov. 17, 2004    Petty cash   Bonus gift certificate                             20.00
Nov. 30, 2004    Petty cash   Christmas party                                    50.00
Nov. 30, 2004    Petty cash   Party supplies                                     21.00
Dec. 08, 2004    1669         Christmas gift cards                            3,230.00
Dec. 10, 2004    1688         Christmas bonus check                             150.00
Dec. 10, 2004    1690         Christmas bonus check                             150.00
Dec. 10, 2004    1691         Christmas bonus check                             150.00
Dec. 11, 2004    1608         Christmas party                                 1,824.00
Jan. 05, 2005    1729         Gift                                               22.00
Jan. 11, 2005    Petty cash   Bonus gift certificate                             40.00
Jan. 31, 2005    Petty cash   Bonus gift certificate                             20.00
Apr. 25, 2005    1960         Bonus gift certificate                             20.00
Apr. 26, 2005    Petty cash   Gifts                                              25.00
May 20, 2005     2057         Bonus gift certificate                             90.00
July 27, 2005    2141         Party supplies                                    313.00
July 27, 2005    2141         Party supplies                                     39.00
July 28, 2005    2183         Bonus gift certificate                             25.00




                                                                32
Check date         Check      Description                                     Ineligible      Unsupported      Unnecessary
                  number                                                            @              @                @
Aug. 15, 2005    2217         Bonus gift certificate                            $   20.00
Aug. 23, 2005    Petty cash   Bonus gift certificates                               75.00
Sept. 21, 2005   2306         Bonus gift certificate                                25.00
Nov. 30, 2005    2451         Parking Dec. 2005                                     49.00
Dec. 17, 2005    2458         Christmas party                                    2,116.00
Dec. 20, 2005    1275         Christmas bonus check                              2,500.00
Dec. 21, 2005    2510         Christmas bonus check                                100.00
Dec. 21, 2005    2511         Christmas bonus check                                100.00
Dec. 21, 2005    2512         Christmas bonus check                                100.00
Dec. 22, 2005    2513         Parking Jan. 2006                                     49.00
Jan. 20, 2006    2593         Christmas gifts                                       87.00
Jan. 27, 2006    2605         Parking Feb. 2006                                     49.00
Feb. 02, 2006    2644         Lunch                                                108.00
Feb. 14, 2006    2696         Christmas bonus gift certificates/party            3,360.00
Feb. 22, 2006    2703         Parking Mar. 2006                                     49.00
Mar. 01, 2006    2704         Christmas party liquor/coffee                         93.00
Mar. 21, 2006    2781         Bonus gift certificate                                20.00
Mar. 23, 2006    2784         Parking Apr. 2006                                     49.00
Mar. 28, 2006    2814         Banquet                                            1,000.00
Apr. 07, 2006    2844         Christmas party                                      103.00
Apr. 21, 2006    2888         Bonus gift certificate                                20.00
Apr. 24, 2006    2891         Parking May 2006                                      49.00
                                           Total employee incentives           $17,820.00
Dec. 16, 2005 2486            Contracted services performed before Dec. 16,        981.00
                              2005
Dec. 27, 2005    2529         Contracted services Dec. 19-23, 2005                 980.00
Jan. 04, 2006    2577         Contracted services Dec. 12-30, 2005               1,716.00
Jan. 11, 2006    2586         Contracted services Jan. 2-6, 2006                   833.00
Jan. 24, 2006    2594         Contracted services Jan. 9-20, 2006                1,912.00
Jan. 31, 2006    2637         Contracted services Jan. 23-27, 2006                 980.00
Feb. 10, 2006    2666         Contracted services Jan. 30-Feb. 3, 2006             980.00
Feb. 17, 2006    2700         Contracted services Feb. 6-10, 2006                  980.00
Mar. 03, 2006    2727         Contracted services Feb. 13-14, 2006                 392.00
                                               Total consulting fees            $9,754.00
Jan. 22, 2004    1240         Agent employee travel                                347.00
June 07, 2004    1333         Agent employee travel                                137.00
July 07, 2004    1364         Travel to agent                                                      $ 290.00
Oct. 13, 2004    1559         Travel to agent hotel costs                                             135.00
Nov. 02, 2004    1588         Travel to agent                                                         133.00
Nov. 16, 2004    1637         Agent employee travel                                                   131.00
Apr. 26, 2005    Petty cash   Travel to agent                                                          83.00
Sept. 21, 2005   2290         Travel to agent-sponsored meeting                                       259.00
Sept. 21, 2005   2283         Travel to agent-sponsored meeting                                        92.00
Oct. 03, 2005    2330         Travel to agent-sponsored meeting                                        61.00
Nov. 22, 2005    2422         Travel to agent-sponsored meeting                                       925.00
                                               Total travel expenses                $484.00        $2,109.00
Feb. 13, 2004    1014         Additional use charges Jan. 19, 2004                                                   $ 14.00
Apr. 06, 2004    1174         Additional use charges Mar. 19, 2004                                                     10.00
Apr. 28, 2004    1239         Additional use charges Apr. 19, 2004                                                      4.00
June 01, 2004    1326         Additional use charges May 19, 2004                                                      19.00
June 30, 2004    1382         Additional use charges June 19, 2004                                                     21.00
Aug. 02, 2004    1421         Additional use charges July 19, 2004                                                     27.00



                                                               33
Check date         Check   Description                                     Ineligible     Unsupported      Unnecessary
                  number                                                       @               @                @
Sept. 03, 2004   1496      Additional use charges Aug. 19, 2004                                                     4.00
Sept. 30, 2004   1541      Additional use charges Sept. 19, 2004                                                   13.00
Nov. 02, 2004    1611      Additional use charges Oct. 19, 2004                                                     3.00
Nov. 29, 2004    1662      Additional use charges Nov. 19, 2004                                                  $ 12.00
Jan. 05, 2005    1737      Additional use charges Dec. 19, 2004                                                    45.00
Feb. 01, 2005    1796      Additional use charges Jan. 19, 2005                                                    84.00
Mar. 14, 2005    1895      Agent’s plan and additional employee use charges   $ 106.00                             81.00
                           Feb. 19, 2005
Apr. 08, 2005 1955         Agent’s plan and additional employee use charges       48.00                              14.00
                           Mar. 19, 2005
June 02, 2005 2064         Agent’s plan and additional employee use charges       99.00                             542.00
                           Apr. 19 & May 19, 2005
July 14, 2005 2136         Agent’s plan and additional employee use charges      195.00                              59.00
                           June 19, 2005
July 28, 2005 2182         Agent’s plan and additional employee use charges       55.00                              47.00
                           July 19, 2005
Sept. 21, 2005 2304        Agent’s plan and additional employee use charges       89.00                              35.00
                           Aug. 19, 2005
Oct. 03, 2005 2347         Agent’s plan and additional employee use charges       76.00                              28.00
                           Sept. 19, 2005
Nov. 01, 2005 2389         Agent’s plan and additional employee use charges       61.00                             26..00
                           Oct. 19, 2005
Dec. 16, 2005 2488         Agent’s plan and additional employee use charges       48.00                              38.00
                           Nov. 19, 2005
Dec. 29, 2005 2569         Agent’s plan and additional employee use charges       48.00                              15.00
                           Dec. 19, 2005
Jan. 31, 2006 2638         Agent’s plan and additional employee use charges       52.00                              38.00
                           Jan. 19, 2006
Mar. 03, 2006 2735         Agent’s plan and additional employee use charges       54.00                              48.00
                           Feb. 19, 2006
Mar. 28, 2006 2828         Agent’s plan and additional employee use charges       63.00                              26.00
                           Mar. 19, 2006
Apr. 28, 2006 2897         Agent’s plan and additional employee use charges       54.00                              19.00
                           Apr. 19, 2006
June 05, 2006 2986         Agent’s plan and additional employee use charges       56.00                              23.00
                           May 19, 2006
                                        Total cell phone expenses             $1,104.00                         $1,295.00
Jan. 24, 2005    1776      Accounting services for additional IPA* work                                         15,428.00
Jan. 30, 2006    2634      Accounting services for additional IPA work                                           3,690.00
Mar. 15, 2006    2754      Accounting services through Mar. 10, 2006                                               420.00
Mar. 17, 2006    2755      Accounting services for additional IPA work                                           2,850.00
Mar. 20, 2006    2756      Accounting services Mar. 11-19, 2006                                                    595.00
Mar. 28, 2006    2822      Accounting services Mar. 20-24, 2006                                                    683.00
Apr. 07, 2006    2833      Accounting services Apr. 3-6, 2006, plus 11 hrs.                                      1,050.00
Apr. 25, 2006    2892      Accounting services Apr. 7-23, 2006                                                     630.00
May 02, 2006     2902      Accounting services Apr. 24-30, 2006                                                    385.00
May 08, 2006     2907      Accounting services May 1-8, 2006                                                     1,068.00
May 17, 2006     2916      Accounting services May 9-14, 2006                                                      560.00
May 22, 2006     2950      Accounting services for additional IPA work                                           1,687.00
May 24, 2006     2953      Accounting services May 15-21, 2006                                                     438.00
May 31, 2006     2963      Accounting services May 22-26, 2006                                                     840.00
                                          Total accounting fees                                                $30,324.00
                                                 Subtotal                   $83,070.00         $2,109.00       $31,619.00
                                      Grand total of questioned costs                                         $116,798.00
      * IPA=independent public accountant.              @ =All check amounts have been rounded.




                                                           34
Appendix E

          PROJECT OWNER AND AGENT RELATIONSHIP

The independent public accountant for the project, along with HUD field office staff, has
concerns about the success of the project due to the relationship that exists between the owner
and the agent. Further, the capital investment made by the entities influences the notion of who
has a vested interest in the project. In addition, the owner’s attempt to replace the agent and a
later injunction against the owner increase concerns regarding how the resolution of such matters
will impact the project.

The relationships among the developer, owner, and agent are unique to this project. Peregrine
Development Company (developer) proposed a project that included Peregrine’s Landing, LLC,
as the owner and Peregrine Health Management Company as the agent. Although similar in
name, Peregrine’s Landing, LLC, is not related to the developer or the agent. Peregrine’s
Landing, LLC, is a not-for-profit entity and qualifies as a tax-exempt organization under Section
501(c)(3) of the Internal Revenue Code. The sole member of the company is the Bennett-
Feinberg Foundation. Peregrine’s Landing, LLC, licensed to operate an enriched assisted living
facility, did not have the necessary experience and was later required to obtain an experienced
operator or agent. Thus, Peregrine’s Landing, LLC, entered into a 15-year management
agreement with Peregrine Health Management Company in November 2002. Peregrine Health
Management Company has an identity-of-interest relationship with the developer and is a for-
profit organization.

Peregrine Development Company provided more than $707,500 toward the financing of the
project and continues to have a financial interest in the project. Peregrine Development
Company deferred $580,000 due to it for a portion of the development fee and the land purchase
price and accepted Series 2002D bonds in lieu of payment.

The project was primarily financed through the issuance of bonds. In November 2002,
$7,795,000 in tax-exempt facility revenue bonds, Series 2002A, and $1,380,000 in taxable
facility revenue bonds, Series 2002B, were issued. The $9,175,000 mortgage loan is insured by
the Federal Housing Administration. In addition, $1,175,000 and $725,000 in subordinated
Series 2002C and 2002D bonds were issued for financing a portion of the costs of the project and
payment of certain development and financing fees. In conjunction with the issuance of the
Series 2002A, 2002B, and 2002C bonds and the establishment of an operating deficit reserve
fund, the construction contractor provided $335,000 in letters of credit to fund the transaction.
The project was financed in this manner because Peregrine’s Landing, LLC, was a not-for-profit
entity but did not have the necessary capital. The lack of capital investment by Peregrine’s
Landing, LLC, raises concerns over its ability to support the project.

In January 2005, Peregrine’s Landing, LLC, the project owner, attempted to replace the agent.
During that process, Peregrine’s Landing, LLC, provided an acceptable replacement agent to
HUD. However, the owner could not get approval of the replacement agent from the
subordinated Series 2002C bondholder representative. In addition, on May 5, 2005, Peregrine


                                               35
Health Management Company and two board members of the Bennett-Feinberg Foundation filed
a complaint against Peregrine’s Landing, LLC, and a temporary restraining order was issued on
May 6, 2005, against Peregrine’s Landing, LLC, in regard to terminating the agent contract. On
July 28, 2005, a preliminary injunction was issued against Peregrine’s Landing, LLC. Officials
for Peregrine Health Management Company contend that the lawsuit has been settled, however,
we were not provided with a fully executed settlement agreement. Further, as of date of this
report, there was no evidence in Erie County records to reflect that the lawsuit been discharged.
In conclusion, due to the owner/agent conflict, ownership concerns, and the amount of debt
service, it is questionable whether the project can be successful.




                                               36
Appendix F
                                     CRITERIA

    A. HUD regulatory agreement, paragraph (9)(c), provides that the mortgagor shall make
       no payment for services, supplies, or materials unless such services are actually
       rendered for the project or such supplies or materials are delivered to the project and
       are reasonably necessary for its operation. Payments for such services or materials
       shall not exceed the amount ordinarily paid for such services, supplies, or materials in
       the area where the services are rendered or the supplies or materials furnished.

    B. HUD regulatory agreement, paragraph (4)(a), provides that the mortgagor shall not,
       without the prior written approval of the secretary of housing and urban development
       (secretary), transfer, dispose of, or encumber any of the mortgage property. Any such
       transfer shall be only to a person or persons or corporation satisfactory to an approval
       by the secretary, who shall, by legal and valid instrument in writing, to be recorded or
       filed in the same recording office in which conveyances of the property covered by
       the mortgage are required to be filed or recorded, duly assume all obligations under
       this agreement and under the insured note and mortgage.

    C. HUD regulatory agreement, paragraph (4)(b), provides that the mortgagor shall not,
       without the prior written approval of the secretary, assign, transfer, dispose of, or
       encumber any personal property of the project, including rents, and shall not disburse
       or pay out any funds except for usual operating expenses and necessary repairs.

    D. HUD Handbook 4370.2, REV-1, CHG-1, “Financial Operations and Accounting
       Procedures for Insured Projects,” paragraph 2-6 (e), provides that all disbursements
       from the regular operating account (including checks, wire transfers, and computer-
       generated disbursements) must be supported by approved invoices/bills or other
       supporting documentation. Paragraph 4-4 provides that the legal expense account,
       records legal fees or services incurred on behalf of the project (as distinguished from
       the mortgagor entity). For example, agents charge legal fees for eviction procedures
       to this account.

    E. Internal Revenue Service Procedure 97-13, regarding federal tax limitations
       applicable to management contracts between for-profit managers and not-for-profit
       owners, provides that the longest allowable term of a contract, including all renewal
       options, is 15 years. In addition, at least 95 percent of the compensation must be
       based on a fixed fee.

    F. HUD Handbook 4381.5, “Management Agent Handbook,” paragraph 3.1, provides
       that the management agent must absorb the costs of supervising and overseeing
       project operations from the management fee it receives. Further, paragraph 3.15
       (b)(6)(a) provides that if fee amounts are not acceptable under the procedures set
       forth in this chapter, the owner and agent must refund to the project any excessive
       fees collected.



                                            37
